U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General



            Office of the Secretary




        Commerce Has Implemented
     Operations to Promote Accurate
            Recipient Reporting, but
          Improvements Are Needed


                Final Audit Report ARR–19847

                                  October 2009




                Office of Audit and Evaluation
                              Report In Brief
                                U.S. Department of Commerce Ofﬁce of Inspector General
                                                     October 2009

Why We Did This Review American Recovery and Reinvestment Act of 2009
Recipients of Recovery
Act funds must report to
FederalReporting.gov on       Commerce Has Implemented Operations to Promote
their funding use begin-
ning in October 2009.
                              Accurate Recipient Reporting, but Improvements Are
These quarterly reports       Needed (ARR–19847)
detail their projects and
activities funded by the
Recovery Act and support,
with data, their impact on
job creation and retention.   What We Found
As part of its oversight
responsibilities, the Re-     Commerce and its bureaus have proactively ensured that Recovery Act recipients
covery Accountability and     recognize and meet reporting requirements and deadlines. Commerce Recovery
Transparency Board asked      Act implementation ofﬁcials provided policy, guidance, and oversight to bureau
inspectors general to audit   grant and contracts ofﬁcials to facilitate department-wide standard review pro-
bureaus receiving Recov-
                              cesses. Bureau ofﬁcials established policies and procedures to support compliance
ery Act funding to assess
their ability to perform      with requirements, contacted recipients by telephone and e-mail, provided recipi-
reviews, identify report-     ents with training on Recovery Act reporting, and offered recipients tools such as
ing omissions and errors,     checklists to help guide them through the reporting process.
and notify recipients that    As requested by the Recovery Board, we completed our audit prior to the ﬁrst
should make appropriate
                              full, ﬁnalized review cycle. As such, it was too early to determine whether bureau
and timely changes. This
helps Commerce oversee        processes will adequately identify and remediate material omissions and sig-
the expedient, effective      niﬁcant data errors. However, we did identify improvements Commerce and its
spending of Recovery Act      bureaus should make to data quality policies and procedures (especially important
funds on programs vital       as programs mature and review procedures are fully implemented). Given that
to stimulating the U.S.       the reporting process is in its initial stages, uncertainties remain and bureaus will
economy.                      need to address certain issues as processes evolve, as our recommendations detail.
Background
Our objective was to
determine whether Com-
merce bureaus receiving
Recovery Act funding have
established effective pro-    What We Recommend
cesses to perform limited
data quality reviews of       We recommend that Commerce and its bureaus continue to ﬁne-tune their review
recipient information.        procedures by:
To accomplish this, we         • providing guidance on what constitutes a material omission and signiﬁcant
assessed how each bureau
                                 error and documenting this in their policies and procedures;
reviews quarterly Recov-
ery Act data. By examin-       • ensuring that they implement an automated means of reviewing the data,
ing each review process,         especially for larger programs with a high volume of recipients reporting; and
we determined each
bureau’s ability to iden-      • updating and revising policies and procedures as the process matures and
tify and correct systemic        more recipient reporting challenges emerge—especially in the areas of subre-
reporting problems.              cipient reporting and job creation and retention.
                                                 UNITED STATES DEPARTMENT OF COMMERCE
                                                 Office of Inspector General
                                                 Washington. D.C. 20230



October 30, 2009




MEMORANDUM FOR: Ellen Herbst
                Senior Advisor for Recovery Act Implementation
                  U.S. Department of Commerce

                                                     g
                              Office of th~. Soecretar      ~/t I yc
FROM:                       Ann Eilers ~ [             ""'-      ~Ie,
                            Recovery Act Task Force Senior Advisor
                              and Project Leader

SUBJECT:                    Commerce Has Implemented Operations to Promote
                            Accurate Recipient Reporting, but Improvements Are
                            Needed (ARR-19847)


We attach, for your action, a copy of our final audit report related to our review
to determine whether each bureau receiving Recovery Act funding has
established a process to perform limited data quality reviews intended to
identify material omissions and/or significant reporting errors, as well as
notify recipients who need to make appropriate and timely changes. We will
also post the report on OIG's Web site pursuant to section 8L of the Inspector
General Act of 1978, as amended.

We conducted this audit under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13, dated August
31, 2006. The Recovery Act, charges inspectors general (IGs) to be proactive and
focus on prevention. The Recovery Board asked that each IG issue a final
report on this review by October 30,2009. Due to the limited time frame, our
audit addressed whether Commerce bureaus had documented processes to
identify and remediate material omissions and significant errors, but it did
not include a determination of whether the bureaus' processes will
adequately accomplish this.

Please submit to us an action plan within 45 calendar days from the date of this
memorandum (December 12, 2009) to determine what actions you will take to
address each recommendation. DAO 213-2, "Inspector General Inspections and
Evaluations," references DAO 213-5, "Audit Resolution and Follow-Up," for
detailed procedures for resolving inspection recommendations.
Please direct any inquiries regarding this report to me at (202) 482-4328. Please
reference the report number (ARR-19847) in all correspondence.

Attachment

cc:   Helen Hurcombe, Commerce, Senior Procurement Director
       and Director of the Office of Acquisition Management

      Ted A. Johnson, Census Bureau, CFO

      Andy Moxam, Census Bureau, Comptroller

      William P. Kittredge, PhD, EDA, Director, National Programs

       and Performance Evaluation

      Sandi Walters, EDA, CFO/CAO

      Todd Grams, NIST, CFO

      Rachel Kinney, NIST, Audit Liaison

      Katherine Fletcher, NIST, Recovery Act Liaison

      Ronald Rhodes, NOAA, Recovery Act Liaison

      Mark Cato, NOAA, Audit Liaison

      Maureen Wylie, NOAA, CFO

      Clifton Beck, NTIA, CFO

      Milton Brown, NTIA, Audit Liaison

U.S. Department of Commerce                                                                                    Final Report ARR–19847 

Office of Inspector General                                                                                               October 2009 

 
 



                                                              Contents
Introduction ................................................................................................................................. 1 

Findings and Recommendations................................................................................................. 3

    I. 	   Data Quality Review Controls Appear to Be in Place, but Improvements Will Be 

           Needed As Programs Become Fully Implemented .........................................................3 

    II. 	 Some Uncertainties Remain for the Recovery Act Reporting Process, and Bureaus 

          Will Need to Fine-Tune Procedures as Processes Evolve ..............................................5 

    III. Recommendations............................................................................................................ 6 

 Summary of Bureau and OIG Comments ................................................................................. 7 

Appendix A: Objectives, Scope, and Methodology ..................................................................... 8 

Appendix B: Full Text of Department Response ....................................................................... 9
 
 

                                             
U.S. Department of Commerce                                       Final Report ARR–19847 

Office of Inspector General                                                  October 2009 

 
 
                                   Introduction


On February 17, 2009, the American Recovery and Reinvestment Act of 2009, Pub.
L., No.111-5, was signed into law. Section 1512 requires recipients of Recovery Act
funds to report on the use of this funding. This reporting requirement is part of the
President’s commitment to provide an unprecedented level of transparency and
accountability on the use of Recovery Act funds. The Recovery Accountability and
Transparency Board is responsible for coordinating and conducting oversight of
Recovery Act spending to help prevent waste, fraud, and abuse. The Recovery Board
has created a system at the Web site FederalReporting.gov to collect data from
recipients receiving these funds. The Recovery Act requires recipients to submit
quarterly reports beginning in October 2009 to contain detailed information on the
projects and activities funded by the Recovery Act and their impact on job creation
and retention.
On June 22, 2009, the Office of Management and Budget (OMB) issued
Memorandum M-09-21, Implementing Guidance for the Reports on Use of Funds
Pursuant to the American Recovery and Reinvestment Act of 2009, providing
government-wide guidance for carrying out the reporting requirements identified in
Section 1512 of the Recovery Act. As part of its oversight responsibilities, the
Recovery Board issued the Data Quality Review Guide, which provided additional
guidance to the inspector general (IG) community for performing reviews of
bureaus’ plans for ensuring data quality of Recovery Act recipient reporting. IG
offices will use this guide to conduct audits to determine whether each bureau
receiving Recovery Act funding has established a process to perform limited data
quality reviews intended to identify material omissions and/or significant reporting
errors, as well as to notify the recipients of the need to make appropriate and timely
changes.
The Recovery Board asked that each IG issue a final report on this review by
October 30, 2009. Due to the limited time frame, our audit addressed whether
Commerce bureaus had documented processes to identify and remediate material
omissions and significant errors, but it did not include a determination of whether
the bureaus’ processes will adequately accomplish this. We detail the objectives,
scope, and methodology of our audit in Appendix A.
Although the OMB guidance does not apply directly to federal government
contracts, during our audit we reviewed bureau-established controls for both grants
and contracts because recipients of federal contracts are also required by Section
1512 of the Recovery Act to report funding information.




                                          1
 
 
U.S. Department of Commerce                                      Final Report ARR–19847 

Office of Inspector General                                                 October 2009 

 
 
Figure 1. Recipient Reporting Timeline




Source: Office of Management and Budget Memorandum M-09-21

OMB Memorandum M-09-21 required recipients of Recovery Act funding to register
with the FederalReporting.gov Web site and submit their first quarterly reports by
October 10, 2009. The prime recipient had until October 21, 2009, to verify
submitted data for all Recovery Act funds for which it is responsible, notify
subrecipients of reporting errors and omissions, and ensure that they completed any
data corrections in a timely manner. The federal bureau then had the opportunity
to review and comment on data until October 29, 2009. The data will be available
for viewing by the general public at both the Recovery.gov Web site and individual
bureau Web sites after this period (see Figure 1).
The Department of Commerce received $7.9 billion of Recovery Act funds, which are
spread across 5 Commerce bureaus and about 35 programs. The largest are the
Broadband Technology Opportunities Program (BTOP) and Census Bureau
programs at $4.7 billion and $1 billion, respectively. Remaining programs range
from $3 million to $650 million for construction, facilities repair, digital TV (DTV)
coupons, equipment procurement, habitat restoration, and science and technology
research.
 




                                          2
 
 
U.S. Department of Commerce                                      Final Report ARR–19847 

Office of Inspector General                                                 October 2009 

 
 
                         Findings and Recommendations


    I.	   Data Quality Review Controls Appear to Be in Place, but 

          Improvements Will Be Needed As Programs Become Fully 

          Implemented 


Our audit determined that the bureaus overseeing the implementation of Recovery
Act reporting—the Economic Development Agency (EDA), Census Bureau, National
Telecommunications and Information Administration (NTIA), National Institute of
Standards and Technology (NIST), and National Oceanic and Atmospheric
Administration (NOAA)—have generally established policies and procedures to
address the quality of recipient reporting data to ensure compliance with Section
1512 requirements.
Overall, the bureaus and Commerce have been proactive in ensuring that Recovery
Act recipients are aware of and meeting the Recovery Act reporting requirements
and deadlines (see Table 1). Commerce Recovery Act Implementation officials
provided policy, guidance, and oversight to bureau grants and contracts officials to
facilitate standard review processes across the Department. Bureau officials
contacted recipients by telephone and e-mail, as well as provided recipients with
training on Recovery Act reporting and tools such as checklists to help guide them
through the reporting process. Bureau officials also inserted language in grant
agreements and contracts requiring compliance with the reporting requirements
specified in Section 1512 of the Recovery Act.
In addition, Commerce and bureau officials reviewed lists provided by the General
Services Administration of recipients that had registered at FederalReporting.gov
ahead of the September 30, 2009, registration deadline. This allowed them to
identify and follow up with recipients who had not yet registered.
We did identify instances in which bureaus could improve. The policies and
procedures for some of the bureaus did not identify (1) what constituted a material
omission or significant error, (2) what constituted a systemic or chronic problem and
how to correct such problems, or (3) reporting data elements or recipients at high
risk for omissions, errors, or problems.
 




                                          3
 
 
U.S. Department of Commerce                                                                           Final Report ARR–19847 

Office of Inspector General                                                                                      October 2009 

 
 
Table 1. Summary of Bureau Policies and Procedures

                                                            EDA           Census           NTIA           NIST            NOAA 

    Recovery Act funding (in Millions)                      $150          $1,000          $5,350          $610            $830 

      

    Policies and Procedures Developed                                                                                  

         General Bureau Review                               YES            (1)              (2)           YES             YES 

         Recipients File Timely Reports                      YES            (1)              (2)           YES             YES 

         Assessing High Risk                                 YES            (1)              (2)           YES             YES 

         Material Omissions and Significant Errors           YES            (1)              (2)           YES             YES 

         Systemic or Chronic Problems                        YES            (1)              (2)           YES             YES 

                                                                                                                              

    Other Guidance Developed                                                                                                  

         Guidance on Recipient Registration                  YES            YES              (2)           YES             YES 

         Guidance on Job Creation Data                       (3)            (3)              (3)           (3)             (3) 

         Training Provided for Recipient/Reviewer            YES            YES              (2)           YES             YES 

         Checklists or Other Review Tools                    YES            (1)              (2)           YES             YES 


         (1)	 The Census Bureau has five contract recipients who received Recovery Act funding, with the majority of 
              Recovery Act funds allocated for payroll expenses related to various decennial operations. The bureau’s policies 
              and procedures appear adequate based on the number of recipients reporting. 
         (2)	 NTIA will use the majority of its Recovery Act funding for the BTOP grant program. NIST and NOAA will 
              administer the grants under this program. They will award a large number of the grants in upcoming months, 
              with the first recipient reporting due in January 2010. While NTIA has discussed the report review process with 
              NIST and NOAA officials, additional policies and procedures and recipient communications are necessary. We 
              believe that NTIA has taken reasonable steps to commence this process, including steps to ensure the proper 
              reporting for the few DTV and BTOP grants and contracts obligated as of September 30, 2009.  
         (3)	 The Commerce Office of Acquisition Management issued additional guidance to the bureaus, dated August 18, 
              2009, on the reporting of job creation and retention pursuant to Section 1512 of the Recovery Act. As bureau 
              programs mature and more reporting challenges emerge, additional guidance may help address the unique 
              aspects of Commerce’s varied programs. 




 




                                                                    4
 
 
U.S. Department of Commerce                                     Final Report ARR–19847 

Office of Inspector General                                                October 2009 

 
 
    II.   Some Uncertainties Remain for the Recovery Act Reporting Process,
          and Bureaus Will Need to Fine-Tune Procedures as Processes Evolve

Currently, all bureaus are performing a 100 percent review of all data reported by
recipients of Recovery Act funding. However, we expect the quantity of recipient
reporting to increase greatly so that a 100 percent review may not be feasible.
Bureaus should consider other review methods, specifically a more automated
review. According to program management officials in some bureaus, they are
working on an automated solution for implementation when volumes increase. At
the time of our audit, they were awaiting data downloads from the
FederalReporting.gov system to make further progress on their initiative.
Duplicate reporting of data may occur. The prime recipient is responsible for
verifying submitted data for all Recovery Act funds for which it is responsible,
notifying subrecipients of reporting errors and omissions, and ensuring that they
complete any data corrections in a timely manner. If the prime recipient enters the
reporting data for the subrecipient and the subrecipient enters the same reporting
data, then FederalReporting.gov will contain duplicate information. At the time of
our audit, no clear indication existed as to whether the Web site has controls in
place to identify any duplicate reporting.
Our discussions with bureau officials indicate that the reporting of jobs-creation
data may pose challenges. Bureau officials have stated that in certain situations,
additional guidance on calculating jobs created is needed in order to ensure a
consistent calculation across programs. Only one of the bureaus included guidance
in its policies and procedures on how to define and report the number of jobs
retained and created. While Commerce’s Office of Acquisition Management provided
guidelines to its bureaus, they may need additional guidance to address the unique
aspects of Commerce’s varied programs, as well as other reporting challenges that
may emerge as bureau programs mature.




                                         5
 
 
U.S. Department of Commerce                                       Final Report ARR–19847 

Office of Inspector General                                                  October 2009 

 
 
III.     Recommendations

We recommend that Commerce and its bureaus continue to fine-tune their review
procedures by:
       •	 providing guidance on what constitutes a material omission and significant
          error and documenting this in their policies and procedures;
       •	 ensuring that they implement automated means of reviewing the data for
          larger programs with a high volume of recipients reporting; and
       •	 updating and revising policies and procedures as the process matures and
          more recipient reporting challenges emerge—especially in the areas of
          subrecipient reporting and job creation and retention.
 




                                            6
 
 
U.S. Department of Commerce                                      Final Report ARR–19847 

Office of Inspector General                                                 October 2009 

 
 
                    Summary of Bureau and OIG Comments

The Commerce Recovery Act Implementation officials responded to our draft audit
report and agreed with our audit recommendations to fine-tune bureau policies and
procedures for the review of recipient reporting.

We appreciate the Commerce Recovery Act Implementation officials’ response to the
draft audit report and their continued efforts to help ensure the quality of the data
reported by Recovery Act fund recipients.




                                          7
 
 
U.S. Department of Commerce                                      Final Report ARR–19847 

Office of Inspector General                                                 October 2009 

 
 
              Appendix A: Objectives, Scope, and Methodology


 Section 1512 of the Recovery Act requires recipients to report funding and project
data to the FederalReporting.gov Web site. The objective of this audit was to
determine whether Commerce bureaus receiving Recovery Act funding have
established effective processes to perform limited data quality reviews of the
information reported by recipients. We performed the following steps:
    •	 assessed each bureau’s policy and procedures for reviewing quarterly 

       Recovery Act data pursuant to OMB Memorandum M-09-21; 

    •	 determined how each bureau plans to ensure that all recipients have filed the
       required quarterly reports pursuant to Section 1512 of the Recovery Act and
       how each bureau will ensure that it conducts the required review of the
       reported data;
    •	 conducted a walk-through of each bureau’s process to perform limited data
       quality reviews;
    •	 determined whether each bureau’s policy and procedures emphasize the
       avoidance of material omissions and significant reporting errors; and
    •	 determined whether each bureau has an adequate process in place to identify
       and correct systemic or chronic reporting problems.
Because the Recovery Act did not require recipients to report first quarter data
until October 10, 2009, and gave them until October 29, 2009, to correct any data
errors, our audit did not include a review of the data submitted. As such, we could
not determine the accuracy of these data, and it is too early to determine whether
the processes put in place by the bureaus will adequately identify and remediate
any material omissions and significant errors of the data reported.
We conducted this performance audit during September and October 2009, under
the authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated August 31, 2006. In addition, we conducted this
audit in accordance with generally accepted government auditing standards, which
require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe the evidence obtained does provide a reasonable basis for
our findings and conclusions.




                                          8
 
 
U.S. Department of Commerce                           Final Report ARR–19847 

Office of Inspector General                                      October 2009 

 
 
               Appendix B: Full Text of Department Response




                                    9
 
 
